No. 20-1047
IN THE

Supreme Court of the United States
_____________

THE STATE OF ALABAMA, ET AL.,
Petitioners,
v.
ALABAMA STATE CONFERENCE OF THE
N.A.A.C.P., ET AL.,
Respondents.
_____________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Eleventh Circuit
_____________

BRIEF IN OPPOSITION
_____________

DAMON HEWITT
JON GREENBAUM
EZRA ROSENBERG
LAWYERS' COMMITTEE
FOR CIVIL RIGHTS
UNDER LAW
1401 New York Ave.,
N.W.
Suite 400
Washington, DC 20005

CLIFTON S. ELGARTEN
Counsel of Record
KEITH J. HARRISON
DIANA A. JESCHKE
JEROME P. DESANTO
CROWELL & MORING LLP
1001 Pennsylvania Ave.,
N.W.
Washington, DC 20004
(202) 624-2500
celgarten@crowell.com

i
QUESTION PRESENTED
If defendant ultimately prevails on the merits,
should the court of appeals vacate a decision
upholding the district court’s jurisdiction over the
case on the theory that defendant’s victory on the
merits limits defendant’s ability to appeal?

ii
RULE 29.6 STATEMENT
None of the Respondents has a parent
corporation, and no publicly held corporation holds 10
percent or more of any Respondents’ stock.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
RULE 29.6 STATEMENT.......................................... ii
STATEMENT ............................................................. 1
A.

Respondents’ Claims. .................................. 4

B.

Proceedings Below. ..................................... 5

REASONS FOR DENYING THE PETITION........... 8
I.

A Subsequent Judgment In Favor Of
Defendant On The Merits Does Not Render
Earlier Jurisdictional Or Other Decisions In
Favor Of Plaintiff Subject To Vacatur. ............ 11
A.

Munsingwear Vacatur Does Not Apply
To “Mootness” Caused by a Favorable
Decision on the Merits Limiting
Review
of
Unrelated
Adverse
Decisions. ................................................... 11

B.

Merits
Decisions
Superseding
Temporary Injunction Decisions Offer
No Support for Petitioners’ Theory. ......... 14

C.

Camreta v. Greene Does Not Support
Petitioners’ Theory. ................................... 16

II. U.S. Bancorp Precludes Petitioners’ Theory.
........................................................................... 19
A.

Final Judgment In Petitioners’ Favor
Is Not “Happenstance” Giving Rise To
The Possibility of Vacatur Under
Munsingwear. ............................................ 19

iv
TABLE OF CONTENTS
(continued)
Page
B.

Even If Potentially Eligible for
Munsingwear Vacatur, The Equities
Here Preclude It. ....................................... 21

III. The Summary Order At Issue Does Not
Lend Itself To Review. ...................................... 22
CONCLUSION ......................................................... 24

v
TABLE OF AUTHORITIES
Page(s)
Cases
Azar v. Garza,
138 S. Ct. 1790 (2018)..........................................23
Camreta v. Greene,
563 U.S. 692 (2011) .............................. 2, 16, 17, 18
Cmty. Stabilization Project v. Martinez,
31 F. App’x 340 (8th Cir. 2002) ...........................21
Gen. Elec. Co. v. Joiner,
522 U.S. 136 (1997) ..............................................23
Grupo Mexicano Desarollo S.A. v. Alliance
Bond Fund, Inc.,
527 U.S. 308 (1999) ..............................................15
Harper ex rel. Harper v. Poway Unified Sch.
Dist.,
549 U.S. 1262 (2007) ................................ 14, 15, 16
Mixon v. Ohio,
193 F.3d 389 (6th Cir. 1999)..................................1
OCA-Greater Houston v. Texas,
867 F.3d 604 (5th Cir. 2017)..................................1
Pacific Telephone Telegraph Co. v.
Kuykendall,
265 U.S. 196 (1924) ..............................................15

vi
TABLE OF AUTHORITIES
(continued)
Page(s)
Puerto Rico Aqueduct & Sewer Auth. v.
Metcalf & Eddy, Inc.,
506 U.S. 139 (1993) ................................................6
U.S. Bancorp. Mortg. Co. v. Bonner Mall
P’ship,
513 U.S. 18 (1994)
...................................................................... passim
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950)
...................................................................... passim
In re Western Pacific Airlines, Inc.,
181 F.3d 1191 (10th Cir. 1999)............................21
Statutes
52 U.S.C. § 10301 ........................................................4
Rules
Sup. Ct. R. 13.3 ...........................................................9
U.S. Constitution
U.S. Const. Amend. XI ............................................5, 6
U.S. Const. Amend. XIV .............................................4
U.S. Const. Amend. XV ...............................................4

vii
TABLE OF AUTHORITIES
(continued)
Page(s)
Other Authorities
Oral Argument, Alabama State Conference
of the NAACP, et. al., v. The State of
Alabama, No. 17-14443 (11th Cir. Dec.
14, 2018) .................................................................6
Respondents’ Suggestion of Mootness, No.
06-595, 2007 WL 496330 (U.S. 2007) ..................16

BRIEF IN OPPOSITION
_____________
Respondents Alabama State Conference of the
N.A.A.C.P., Sherman Norfleet, Clarence Muhammad,
Curtis Travis, and John Andrew Harris respectfully
submit that the petition for a writ of certiorari should
be denied.
STATEMENT
Petitioners filed an interlocutory appeal in the
Eleventh Circuit arguing that the district court erred
in holding that the State of Alabama was not immune
from private suits brought under Section 2 of the
Voting Rights Act. While the appeal was pending the
case continued in the district court through discovery,
additional motions practice, and then through trial.
In response to the suggestion that completion of the
trial in the district court, with decision impending,
required dismissal of their interlocutory appeal – a
collateral order appeal that is allowed to vindicate the
State’s interest in avoiding the burdens of trial court
proceedings – Petitioners argued that the court of
appeals should retain jurisdiction and render a
decision.
The court of appeals, therefore, went on to rule
on the jurisdictional question presented by
Petitioners’ interlocutory appeal. Fully consistent
with the views of the other circuit courts that had
addressed the issue1, the Eleventh Circuit confirmed
See Pet. App. 12a (explaining that its ruling was consistent
with that of the two other circuits that had addressed the issue,
as well two three judge panel district courts). See also Mixon v.
Ohio, 193 F.3d 389 (6th Cir. 1999); OCA-Greater Houston v.
Texas, 867 F.3d 604, 614 (5th Cir. 2017).
1

2
the district court’s jurisdiction, concluding that
Congress had indeed abrogated state sovereign
immunity under the Voting Rights Act, allowing
private suits under Section 2 of that Act, including
this suit, to proceed in federal court. Two days later
– i.e. two days after the court of appeals panel
confirmed the district court’s jurisdiction – the
district court issued its decision in Petitioners’ favor
on the merits, rejecting Respondents’ claim of a
violation of the Voting Rights Act, and entered
judgment for Petitioners.
Petitioners did not seek rehearing en banc of the
panel’s sovereign immunity ruling, asking the court
of appeals to examine that ruling on its merits.
Compare Camreta v. Greene, 563 U.S. 692 (2011)
(allowing prevailing party to pursue appeal of certain
rulings). Petitioners did, however, move to dismiss
the appeal as moot and, citing United States v.
Munsingwear, Inc., 340 U.S. 36 (1950), argued that
inasmuch as Petitioners prevailed on the merits, the
court of appeals should vacate its decision upholding
the district court’s jurisdiction.
The panel dismissed the appeal, but declined to
vacate. Petitioners sought rehearing en banc, limited
to whether they were entitled to have the panel
decision vacated.
The court of appeals denied
rehearing en banc. Petitioners now seek certiorari
asking the Court to vacate the jurisdictional decision,
or perhaps to review the court of appeals’ order
declining to vacate that decision.
As seen below, the Petition is far wide of the
mark because the stated premise of Petitioners’
argument – that “[t]his Court has accordingly vacated
decisions in interlocutory appeals that became moot

3
because the district court entered final judgment after
the court of appeals ruled,” Pet. i – is incorrect.
Petitioners are correct that such a circumstance may
render further appeal moot. But they proffer no
precedent in this Court’s cases, or any circuit court,
for the proposition that an ultimate decision on the
merits in favor of a defendant renders a case moot “by
happenstance,” and thus eligible to have this Court
vacate prior adverse jurisdictional decisions under
the authority of Munsingwear.

Indeed, it is a rather common and ordinary
occurrence for a court to hold that a plaintiff has
properly invoked the court’s jurisdiction, or is entitled
to a ruling in its favor on some legal issue, but then
ultimately find for the defendant on the basis of facts
adduced at trial, or some other legal or factual issue.
That circumstance may affect the ability to appeal
particular issues, and even render an ongoing appeal
moot, and subject to dismissal. But that circumstance
does not require the court to go back and vacate prior
rulings in plaintiff’s favor on distinct jurisdictional (or
other) issues. To the contrary, that a court may find
that it has jurisdiction, then rule that defendant has
prevailed on the merits, reflects the ordinary, orderly
administration of judicial proceedings. It is not the
kind of disruption to such proceedings – resulting
from mootness caused by happenstance or the
opposing party – that warrants the extraordinary
remedy of vacatur.
But even if this case potentially qualified for
Munsingwear treatment – and it does not – the
Petition would still have to be denied. As seen below,
Petitioners’ own idiosyncratic procedural choices in
this case, directly contributing to the circumstance

4
about which they now complain, undermines their
case for the equitable remedy of vacatur.
Finally, while Petitioners assert that the
underlying ruling of the court of appeals on the
jurisdictional issue is important (though not one on
which the circuit decisions are conflicting), they do
not ask this Court to review that decision. Indeed,
they do not directly seek review of any decision.
Rather, they appear to seek only this Court’s de novo
intervention, despite the fact that the court of appeals
– having been presented with Petitioners’ motion for
vacatur and having exercised its equitable discretion
to deny that motion – directly passed on the issue.
Indeed, even if one were to construe the petition
as seeking a review of the decision below, that
decision states no rule of law; it sets no precedent. It
neither creates nor reflects any conflict with any
decision of another circuit, and it states no legal
principle for this Court to examine. It thus presents a
rather poor vehicle for certiorari.
For these, and many additional reasons, the
petition for certiorari should be denied.
A.

Respondents’ Claims.

Alabama elects appellate judges on a statewide
basis. On September 7, 2016, as amended January 9,
2018, Respondents (the Alabama State Conference of
the N.A.A.C.P. and four African-American Alabama
voters) filed this action against Petitioners (the State
of Alabama and the Alabama Secretary of State)
alleging that Alabama’s method of electing appellate
court judges contravened Section 2 of the Voting
Rights Act, 52 U.S.C. § 10301, as well as the
Fourteenth and Fifteenth Amendments to the

5
Constitution, by diluting the votes of African
American Alabamians on account of race.
Respondents argued, among other things, that
electing appellate judges statewide, rather than from
districts, prevents African-American voters from
electing candidates of their choice and denies those
voters an equal opportunity to participate in the
political process.
B.

Proceedings Below.

Petitioners moved to dismiss on several grounds,
arguing, inter alia, that no private right of action
against the State is authorized under Section 2 and,
therefore, Respondents’ Section 2 claim against the
State of Alabama was barred by the Eleventh
Amendment.
On August 31, 2017, the district court denied
Petitioners’ motion to dismiss, concluding that “states
may not hide behind the Eleventh Amendment in
defending themselves in suits by private plaintiffs for
alleged violations of the VRA” and, accordingly, the
State of Alabama was not immune from suit under
Section 2. Pet. App. 56a-62a. Petitioners filed an
interlocutory appeal before the United States Court of
Appeals for the Eleventh Circuit with respect to the
State of Alabama’s Eleventh Amendment immunity
issue.2 In so doing, Petitioners relied on the collateral
order doctrine which has been construed to allow
immediate appeal of sovereign immunity denials on
the theory that a state’s sovereign immunity provides
it with a right to be free of the rigors of a lawsuit, not

Petitioners did not dispute that the Section 2 claim could
proceed as to the Alabama Secretary of State in his official
capacity.
2

6
simply an adverse judgment on the merits, reviewable
at the conclusion of the case. See Puerto Rico
Aqueduct & Sewer Auth. v. Metcalf & Eddy, Inc., 506
U.S. 139 (1993).
Petitioners did not seek to stay the district court
proceedings while the appeal was pending, and the
case proceeded through fact and expert discovery, pretrial motions practice, and a six-day bench trial that
concluded on November 19, 2018.
On December 14, 2018, after the trial below had
concluded, oral argument was held on Petitioners’
interlocutory appeal. Respondents pointed out that,
although Petitioners were asserting an Eleventh
Amendment immunity from suit as the basis for their
interlocutory appeal, trial in the Section 2 suit
against the State of Alabama had already occurred.3
When asked why they had not sought to stay the
proceedings below, Petitioners responded that they
had chosen not to move for a stay of the district court
proceedings because they wanted this “very vital
issue to the State” resolved. Oral Argument at 26:32,
Alabama State Conference of the NAACP, et. al., v.
The State of Alabama, No. 17-14443 (11th Cir. Dec.
14, 2018).4
After argument, the court of appeals requested
supplemental briefing on whether “the extent of
proceedings in the district court” rendered the
collateral appeal of the sovereign immunity issue
moot. Petitioners argued that notwithstanding that
3 Briefing was completed and the case submitted to the district
court for decision on September 9, 2019.

See https://www.ca11.uscourts.gov/oral-argumentrecordings?title=17-14443.
4

7
they had engaged in the trial court proceedings and
trial – avoidance of which provided the basis for its
interlocutory appeal – post-trial procedures still
loomed. Therefore, Petitioners argued, the appeal
should proceed and the court of appeals should render
a decision. Petitioners did not ask the court of appeals
to stay its proceedings, or suspend the rendering of its
decision, pending the trial court’s decision on the
merits.
On February 3, 2020, the panel affirmed the
district court in an opinion authored by Judge Wilson.
The panel agreed with Petitioners that its
interlocutory appeal of the sovereign immunity issue
was not moot, because, while trial may have
concluded, “Alabama must defend itself in ongoing
post-trial proceedings.” Pet. App. 7a n.3.
In a lengthy opinion, the panel majority went on
to hold, consistent with rulings of other circuit courts
that had addressed the issue, that Congress
abrogated state sovereign immunity in the Voting
Rights Act and, therefore, the State of Alabama was
not immune from suit under Section 2. Pet. App. 5a37a. Judge Branch dissented. Petitioners did not
then, or at any time, request en banc review of the
February 3, 2020 panel decision.
Two days later, on February 5, 2020, the district
court issued an opinion and order rendering final
judgment on the merits of the Section 2 and
Fourteenth and Fifteenth Amendment claims in favor
of Petitioners.
On February 21, 2020, Petitioners moved the
court of appeals to dismiss the interlocutory appeal as
moot and to vacate the February 3, 2020 opinion.
They asserted that the district court’s order rendered

8
further action on the interlocutory appeal moot.
Petitioners further argued that because they were
unable to seek review of the panel’s February 3, 2020
opinion, the opinion should be vacated under
Munsingwear.
On May 14, 2020, the panel issued an order
without opinion, granting Petitioners’ motion to
dismiss the appeal as moot but denying the request to
vacate the February 3, 2020 opinion. Pet. App. 1a-4a.
Judge Branch dissented from the refusal to vacate the
opinion. Petitioners then sought rehearing en banc of
the order denying the motion to vacate. That petition
was denied on October 29, 2020, without the court
having called for a response. Pet. App. 63a.
The Petition was filed on January 27, 2021,
seeking vacatur of the sovereign immunity decision.
REASONS FOR DENYING THE PETITION
The Petition should be denied. Petitioners seek
to extend Munsingwear into a realm where neither
this Court nor any circuit court has taken it before.
Contrary to Petitioners’ assertion that this Court
routinely vacates decisions on jurisdiction that
become unreviewable because defendant prevailed on
the merits, Petitioners do not identify even one case
in which this or any other court has done so. A
defendant’s ultimate victory on the merits does not
create the kind of happenstantial mootness that
warrants vacatur of earlier, jurisdictional (or other)
decisions properly rendered in favor of the plaintiff
earlier in the case. Munsingwear does not apply in
that setting.
To the contrary, there is nothing uncommon or
disruptive about a defendant ultimately prevailing on

9
the merits after losing important legal or
jurisdictional skirmishes earlier in the proceedings.
It is not the kind of unanticipated deviation from
ordinary judicial processes, brought about by
happenstance, that would give rise to the
extraordinary remedy of vacatur of earlier decisions
rendered in the case. Indeed, Petitioners’ proposed
expansion of Munsingwear to vacate earlier decisions
upholding the court’s jurisdiction if the defendant
ultimately
prevails
on
the
merits
would
fundamentally transform the doctrine and, as seen
below, produce thoroughly anomalous results.
The absence of any conflict with the decision of
even one other circuit court, or any cited precedent of
this Court, highlights why such an expansion is
unjustified. But for a number of additional reasons,
this is a poor candidate for this Court’s attention and
review.
Although the court below ruled on the vacatur
issue, Petitioners do not appear to seek review of that
court’s decision, which would presumably be reviewed
only for abuse of equitable discretion. Instead they
appear to ask this Court to ignore that court’s exercise
of equitable discretion and judge the matter de novo.5
And even if they did properly seek review of the circuit
Although the time to petition for certiorari runs from the time
of the order sought to be reviewed, Sup. Ct. R. 13.3, Petitioners
propose to measure the timeliness of their Petition from the date
of denial of their en banc petition, which challenged only the
subsequent order declining to vacate the February 3, 2020
decision. This further supports the view that the proper course
here was to seek review of the court of appeals’ decision denying
vacatur, rather than – as Petitioners present it – as a de novo
request to this Court simply to vacate the sovereign immunity
decision.
5

10
court decision denying vacatur, that decision would be
a rather poor vehicle for this Court’s review. Here, in
a manner consistent with this Court’s own decisions
that typically address Munsingwear issues, if at all,
only in summary orders, the court of appeals did not
state its reasons for declining to vacate. A summary
circuit court decision on a motion, involving an
equitable doctrine (Munsingwear vacatur) reviewable
only for abuse of discretion, which sets no precedent
because it is simply a summary order, does not
generally warrant this Court’s review. Although they
emphasize the importance of the sovereign immunity
ruling, the ruling that actually is presented for review
by the Petition states no principle of law and
establishes no precedent that should be of concern to
this Court.
As seen below, Petitioners’ mistaken assertions
about the inferences to be drawn from various per
curiam summary orders of this Court further
undermine their Petition. And Petitioners’ own
unique procedural choices, contributing to the
creation of the circumstance of which they now
complain, would make this a particularly poor vehicle
for review or for vacatur.
Finally, the negative consequences that
Petitioners attribute to the failure to vacate are
grossly exaggerated. Any rejected claim of sovereign
immunity in a subsequent case would be immediately
appealable. The issue thus remains eligible for en
banc review, or certiorari – if such review were truly
warranted, which it is not because the decision is
correct and consistent with the view of other circuits
that have considered the issue. But Petitioners
remain free to seek merits review, should the issue
arise, at a more appropriate time.

11
I.

A Subsequent Judgment In Favor Of
Defendant On The Merits Does Not Render
Earlier Jurisdictional Or Other Decisions
In Favor Of Plaintiff Subject To Vacatur.

The Petition’s major premise is false. A final
decision in a petitioner’s favor on the merits does not
qualify as creating the kind of mootness by
happenstance that may qualify a case for a
Munsingwear vacatur. Petitioners repeatedly assert
to the contrary – that vacatur is routinely granted in
such circumstances – but they identify no precedent
from this or any other Court to support their
contention. Winning is not happenstance under
Munsingwear.
A.

Munsingwear Vacatur Does Not Apply
To “Mootness” Caused by a Favorable
Decision on the Merits Limiting Review
of Unrelated Adverse Decisions.

What is commonly called Munsingwear vacatur
is an equitable doctrine that allows for decisions
rendered in cases that have become moot “by
happenstance” – i.e. by circumstances or actions
beyond the parties’ control, or through the actions of
the opposing party – to be vacated because that
happenstance
has
rendered
the
decision
unreviewable. U.S. Bancorp. Mortg. Co. v. Bonner
Mall P’ship, 513 U.S. 18 (1994). Vacatur is not a
matter of right. To the contrary, it “is petitioner’s
burden, as the party seeking relief from the status quo
of the appellate judgment, to demonstrate not merely
equivalent responsibility for the mootness, but
equitable entitlement to the extraordinary remedy of
vacatur.” Id. at 26. Thus, to qualify for Munsingwear
vacatur, the case must have become moot, and the

12
mootness must not have been the product of the
actions of the party seeking vacatur.
Petitioners,
however,
seek
to
extend
Munsingwear beyond any commonsense application.
Under Petitioners’ logic, a defendant’s ultimate win
on the merits on any basis would lead to the vacatur
of all prior adverse decisions of significance rendered
in the case against it. So far as can be discerned from
the absence of apposite authority presented in the
Petition, this Court has never declared a case
“happenstantially” moot, and thus potentially eligible
for Munsingwear vacatur, because petitioner (seeking
vacatur) has successfully prevailed at final judgment
on the merits, notwithstanding having been on the
downside of decisions and opinions rendered earlier
in the proceedings.
This is not surprising, because this sort of thing
happens all the time. For example, a plaintiff might
prevail on a motion to dismiss, eliciting a legal ruling
that it has stated a cause of action by having
adequately pled certain facts. But it may ultimately
fail to prove those facts, or it may lose the case
because defendant successfully proved an affirmative
defense or for a host of other reasons. That situation
could arise in the trial court. Or it may arise in the
course of appellate proceedings, where the appeals
court addresses one issue, which it decides for the
plaintiff, but ultimately concludes that defendant
must prevail for some other reason.
To be sure, that defendant ultimately prevails
on the merits affects defendant’s ability to appeal
earlier adverse rulings, or may even require the

13
dismissal of an appeal, but it does not give rise to
happenstantial mootness of the kind that will entitle
the defendant to have prior adverse rulings vacated
because they are not subject to appeal. The order in
which the courts address certain issues – whether
they decide certain legal issues before going on to
address what is ultimately the dispositive issue – is
largely a matter of judicial discretion, and reflects the
ordinary course of judicial proceedings.
That the issue decided earlier in the case is
jurisdictional or quasi-jurisdictional, does not change
the principle. To the contrary, it reinforces the basic
principle because it highlights the anomalous results
that would follow were Petitioners’ theory to be
accepted. One can easily imagine many cases in
which a plaintiff, over the defendant’s objection,
prevails on the existence of subject matter
jurisdiction, but the defendant nonetheless ultimately
prevails on the merits. The defendant’s win on the
merits might indeed make it more difficult to appeal
the jurisdictional ruling, or continue with an appeal,
but it doesn’t warrant vacatur of the jurisdictional
ruling. Indeed, the jurisdictional ruling – upholding
jurisdiction – is a precondition to the merits
determination, and vacatur of the jurisdictional
ruling would leave the merits ruling without
foundation. Munsingwear does not provide a basis for
the kind of conundrum Petitioners seek to create here.
As this Court explained in U.S. Bancorp.,
Munsingwear addresses the unusual case where
circumstances outside the control of a party –
mootness caused by independent actions or events, or
the actions of the opposing party – prevent an appeal,

14
and thus “disturb the orderly operation of the federal
judicial system.” U.S. Bancorp., 513 U.S. at 27. The
extraordinary relief provided by vacatur can be
justified only “when the demands of ‘orderly
procedure’ . . . cannot be honored.” Id. (citation
omitted). But where an earlier adverse decision on a
jurisdictional question in a case escapes review
because the defendant ultimately prevails on the
merits, that is the ordinary, orderly operation of the
federal system, not a departure from it. It is not,
therefore, subject to Munsingwear vacatur.
B.

Merits
Decisions
Superseding
Temporary Injunction Decisions Offer
No Support for Petitioners’ Theory.

In their question presented, Petitioners offer
up the summary order of this Court in Harper ex rel.
Harper v. Poway Unified Sch. Dist., 549 U.S. 1262
(2007), as their single ostensible example of a case that
supports their assertion that this “Court has accordingly
vacated decisions in interlocutory appeals that became
moot because the district court entered final judgment
after the court of appeals ruled.” Pet. at i.
Petitioners’ reliance on Harper is wholly
misplaced. The portion of Harper dealing with the
need to dismiss an appeal from the denial of a
temporary injunction after final judgment addresses
a different practice, not the application of
Munsingwear’s mootness rule.
In Harper, this Court granted certiorari and
dismissed plaintiff’s appeal from the denial of a
temporary injunction. This Court cited its customary
practice of dismissing “interlocutory appeals from the
denials of motions for temporary injunctions once

15
final judgment has been entered.” Harper, 549 U.S.
at 1262.
The uncontroversial practice of dismissing
appeals from temporary injunctions once a final
decision on the merits is rendered is not an
illustration or offshoot of Munsingwear. Preliminary
injunctions and other temporary injunctions are, by
their nature, temporary. They remain in effect, at
most, pending final judgment. Once the case has
concluded – for either side – decisions on temporary
injunctions are superseded or merged into the final
judgment. See Pacific Telephone Telegraph Co. v.
Kuykendall, 265 U.S. 196, 205-06 (1924). Thus,
review of the decision on the temporary injunction
usually cannot continue, and an appeal from such a
decision must be dismissed. See Grupo Mexicano
Desarollo S.A. v. Alliance Bond Fund, Inc., 527 U.S.
308, 314 (1999) (“We have dismissed appeals in such
circumstances”). That dismissal does not, however,
give rise to vacatur. And even if it sometimes did, the
situation arising in connection with the appeal of a
temporary injunction is obviously a special case, quite
different from the situation where petitioner seeks to
vacate an earlier independent ruling because it later
prevailed on the merits.
In citing Harper as support for their theory,
Petitioners are apparently confused because in
Harper, this Court went on to explain that “[i]n this
case, vacatur of the prior judgment is also
appropriate.” Harper, 549 U.S. at 1262. But the fact
that the decision on the temporary injunction had
been superseded by final judgment was not what
made vacatur “also appropriate” in Harper.

16
To the contrary, Harper was a free speech case
involving a high school student. And, as this Court
observed, the reason that the district court entered
final judgment against petitioner/plaintiff on its
injunction claim was because that claim had itself
become moot: Plaintiff/petitioner had graduated from
high school and thus no longer had standing to pursue
an injunction claim against that school’s practices or
policies. See Respondents’ Suggestion of Mootness,
No. 06-595, 2007 WL 496330, at * 1 (U.S. 2007). It was
that mootness by happenstance – an ordinary, classic
application of Munsingwear – that provided the
evident basis for vacating the district court’s decision.
In short, Harper offers no support for the
proposition that a decision on an independent legal or
jurisdictional issue, earlier decided in the course of a
case, is rendered subject to Munsingwear vacatur
simply because petitioner ultimately prevails on the
merits. And Petitioners’ misreading of the per curiam
summary order in that case highlights many of the
difficulties associated with its strained effort to create
a cert-worthy issue by drawing inferences from this
Court’s per curiam summary decisions. See U.S.
Bancorp. Mortg. Co., 513 U.S. at 24 (noting this
Court’s “customary skepticism toward per curiam
dispositions that lack the reasoned consideration of a
full opinion”).
C.

Camreta v. Greene Does Not Support
Petitioners’ Theory.

This Court’s decision in Camreta v. Greene, 563
U.S. 692 (2011), which Petitioners also rely on,
similarly highlights the flaws in Petitioners’ theory.

17
In Camreta, this Court granted certiorari to
consider the petition of the party-defendants that had
prevailed in the court below. Plaintiff brought suit
complaining of the violation of her Fourth
Amendment rights. The court below determined that
the conduct complained of was indeed a constitutional
violation, but ultimately held that defendants were
entitled to qualified immunity. On that basis, it
rendered judgment for defendants. Notwithstanding
that they had prevailed below, the prevailing
defendants sought certiorari to challenge the
constitutional decision. This Court held that because
the ruling on the constitutional issue would have a
continuing, future impact on petitioners, the
constitutional issue remained potentially live on
appeal, notwithstanding that petitioners had
prevailed. See Camreta, 563 U.S. at 703 (“That the
victor has filed the appeal does not deprive us of
jurisdiction. The parties in such cases may yet have
a sufficient ‘interest in the outcome of [a litigated]
issue’ to present a case or controversy.”) (alterations
in original) (internal citations omitted).
Of course, under Petitioners’ theory in this
case, it would have been more advantageous for the
defendant in Camreta simply to have argued that its
ultimate victory on the merits by way of qualified
immunity rendered the case moot. Under Petitioners’
theory, that would have allowed defendants to have
the adverse constitutional decision vacated under
Munsingwear, without having to go through the
trouble of demonstrating that it was actually wrongly
decided. Nothing in Camreta suggests that this could
have been an available or permissible option. As
explained above, the fact that a party has ultimately

18
prevailed on the merits does not create the kind of
happenstantial mootness that warrants vacatur
under Munsingwear.
Whether or not Petitioners might have
attempted to pursue their en banc petition on the
merits based on Camreta, the important point is that
Camreta offers no support for the proposition that an
ultimate decision for petitioner on the merits provides
a basis for vacating earlier decisions rendered against
that petitioner in the same case.
Petitioners cite Camreta because this Court
ultimately did vacate the relevant decision. But this
Court was explicit that its reason for doing so was
because the unilateral actions of the opposing party
had created the mootness that might otherwise have
allowed this Court to consider petitioners’ appeal. By
moving outside the state, respondent could not be
affected by the continuing impact of the court of
appeals decision at issue, and thus there was no live
controversy that would allow the appeal to proceed.
Camreta, 563 U.S. at 713 (“[T]he happenstance of
[respondent’s] moving across country and becoming
an adult has deprived Camreta of his appeal rights”).
The case therefore qualified under traditional
Munisingwear standards as one in which continued
review was cut short by happenstance – specifically
the actions of the opposing party. Camreta offers no
support for Petitioners’ position here that prevailing
on the merits warrants vacatur of earlier adverse
jurisdictional decisions.

19
II. U.S.
Bancorp
Theory.

Precludes

Petitioners’

Despite Munsingwear’s long history, Petitioners
can offer no precedent for treating a final decision on
the merits as creating the kind of happenstantial
mootness that could justify vacatur of adverse
jurisdictional decisions rendered earlier in the case.
But the answer why that is true is equally clear from
applying the standards set forth by this Court in U.S.
Bancorp., 513 U.S. at 25-26.
A.

Final Judgment In Petitioners’ Favor Is
Not “Happenstance” Giving Rise To The
Possibility
of
Vacatur
Under
Munsingwear.

U.S. Bancorp explains that as an equitable
doctrine, Munsingwear vacatur is reserved for
situations in which mootness that makes further
review impossible is the product of “happenstance.”
513 U.S. at 25. As such, vacatur is justified only
where the mootness is the product of “the vagaries of
circumstance” or results from unilateral action of
the prevailing party. Id. It is not available where
the “mootness” results even in part from the actions
of the party seeking vacatur. Because a settlement
that gives rise to dismissal, and makes further
litigation “moot,” results from the joint action of both
parties, it cannot qualify as “happenstance” that
could justify vacatur. Id. at 24-25.
Although a settlement is not the “fault” of the
party seeking vacatur, but rather the product of both
parties’ joint action, that fact is sufficient to deny
vacatur. This Court held that although

20
the parties are jointly responsible for settling
may in some sense put them on even footing, but
petitioner’s case needs more than that.
Respondent won below. It is petitioner’s burden,
as the party seeking relief from the status quo of
the appellate judgment, to demonstrate not
merely equivalent responsibility for the
mootness, but equitable entitlement to the
extraordinary remedy of vacatur.
Id. at 26. A party seeking vacatur must show
something more than the fact that the case became
moot. It must show that the mootness arose from the
actions of the opposing party (and for which petitioner
bears no responsibility), or that it arose from some
happenstance beyond the parties’ control.
A final decision on the merits does not arise
from the happenstance of some independent action or
force creating the mootness, or arise from the
unilateral actions of the opposing party. Indeed, even
if Munsingwear could apply to “mootness” created by
a favorable decision on the merits that pretermitted
further appeals of an earlier jurisdictional ruling, this
would be an inapt circumstance to grant vacatur.
That is because Petitioners’ own procedural choices
helped to create the circumstances about which they
now complain.
Petitioners chose both to pursue an interlocutory
appeal and to allow the trial court to proceed with the
case. Petitioners did not seek a stay of those
proceedings. Moreover, even after trial, with the
district court’s final decision on the merits impending,
Petitioners did not ask the court of appeals to suspend
its proceedings or stay its own decision pending the

21
trial court’s disposition. Petitioners are ill-positioned
to claim an entitlement to vacatur where they have
acquiesced in the confluence of proceedings that they
now cite as justifying vacatur. Even in conventional
Munsingwear cases, the circuit courts have concluded
that vacatur must be denied where the party seeking
vacatur could have avoided the events giving rise to
mootness, as by seeking a stay.
See Cmty.
Stabilization Project v. Martinez, 31 F. App’x 340, 342
(8th Cir. 2002) (denying appellant’s request for
vacatur because it failed to seek a stay, injunction or
an expedited appeal); In re Western Pacific Airlines,
Inc., 181 F.3d 1191, 1198 (10th Cir. 1999) (vacatur
denied based, in part, on appellants’ contribution to
mootness by failing to seek a stay of relevant order).
Here, the inability to further appeal about which
Petitioners now complain was the product of the
ordinary course of judicial proceedings. It does not
qualify for vacatur under U.S. Bancorp as the sole
responsibility of Respondents or as the product of
some happenstantial event beyond the parties’
control.
B.

Even If Potentially Eligible for
Munsingwear Vacatur, The Equities
Here Preclude It.

As explained above, this case does not represent
any form of departure or outside interference with the
orderly decisional processes of the federal courts of
the kind that would justify Munsingwear vacatur.
And Petitioners’ own failures to invoke procedural
options that might have forestalled the circumstance
about which they now complain uniquely weights the
equities against Petitioners.

22
But Petitioners’ claim of harsh consequences if
this Court does not vacate the decision below also
rings hollow. Petitioners argue that they have been
deprived of their ability to seek en banc or certiorari
review, and the decision of the court of appeals
establishes a precedent that will subject them and
other States to the jurisdiction of the district courts
for Voting Rights Act cases. But even holding aside
the various options (described above) to try to avoid
this circumstance that Petitioners had at their
disposal but failed to exercise, the claim is wholly
exaggerated.
To be sure, if future private suit is brought
against a State under Section 2 of the Voting Rights
Act, a district court within the Eleventh Circuit, will
reject the claim of sovereign immunity. But the State
may immediately appeal, and immediately seek the
en banc review or certiorari it claims that it was
deprived of in this case. This is not to suggest that en
banc review or certiorari either would, or should,
properly be granted. But the opportunity remains
available through interlocutory appeal.
And
meanwhile, other Circuits remain free to address the
issue, which, as this Court has explained, is the
ordinary means by which legal issues that might
ultimately come to this Court are illuminated. See
U.S. Bancorp., 513 U.S. at 27.
In sum, even if this case were eligible for vacatur
under Munsingwear, the circumstances would not
warrant it.
III. The Summary Order At Issue Does Not
Lend Itself To Review.
Vacatur under Munsingwear is an equitable
matter that turns on the conditions and

23
circumstances of the particular case. Azar v. Garza,
138 S. Ct. 1790, 1792 (2018). It is therefore subject to
review only for abuse of discretion, the hallmark of
which is deference. See Gen. Elec. Co. v. Joiner, 522
U.S. 136, 143 (1997). Here, Petitioners presented
their argument for vacatur to the court of appeals, but
they apparently do not seek to have this Court review
that decision. Rather, they seem to ask, without
providing a clear rationale, for this Court’s direct
intervention without regard to the court of appeals’
ruling – a direct intervention that would be
extraordinary in itself.
And even if this Court were to consider the
Petition as seeking review of the court of appeals’
decision on vacatur, such discretionary decisions, that
present no clear question of law, are not well-suited
for review. That review would be especially difficult
here because the Eleventh Circuit panel (consistent
with this Court’s own approach to the exercise of
Munsingwear discretion) did not detail its reasons or
rationale for denying vacatur.
In sum, for the reasons described in detail above,
the premise of the Petition is faulty. The approach to
Munsingwear vacatur that Petitioners advance is
unsupported by precedent and would lead to
anomalous results. But even holding that aside, there
were many reasons why vacatur should not have been
available here, and the absence of any written opinion
to review, makes this an especially inapt case for
certiorari.

24
CONCLUSION
The Petition should be denied.
Respectfully submitted,
CLIFTON S. ELGARTEN
Counsel of Record
KEITH J. HARRISON
DIANA A. JESCHKE
JEROME P. DESANTO
CROWELL & MORING LLP
1001 Pennsylvania Ave., N.W.
Washington, DC 20004
(202) 624-2500
celgarten@crowell.com
DAMON HEWITT
JON GREENBAUM
EZRA ROSENBERG
LAWYERS' COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1401 New York Ave., N.W.
Suite 400
Washington, DC 20005
Counsel for Respondents

